COCKLE

RAL eg al Briefs E-Mail Address:

 

2311 Douglas Street

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-1126

STACEY MOONEY, PETITIONER
v.
ILLINOIS EDUCATION ASSOCIATION, ET AL., RESPONDENTS

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 9th day of June, 2020, send out from
Omaha, NE 1 package(s) containing 3 copies of the REPLY BRIEF FOR THE PETITIONER in the above entitled case. All
parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar days.
Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
TALCOTT J. FRANKLIN JONATHAN F. MITCHELL
Talcott Franklin PC Counsel of Record
1920 McKinney Avenue Mitchell Law PLLC
7th Floor 111 Congress Avenue
Dallas, Texas 75201 Suite 400
(214) 736-8730 Austin, Texas 78701
tal@talcottfranklin.com (512) 686-3940

jonathan@mitchell.law

Counsel for Petitioner

Subscribed and sworn to before me this 9th day of June, 2020. .
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 8, 2023

 

gl Kense, 0. tooo Ondewr-h, Obl,

Notary Public 9 ~ Affiant

 
John M. West

Bredhoff & Kaiser, P.L.L.C.

805 Fifteenth Street N.W., Suite 1000
Washington, D.C. 20005

(202) 842-2600

jwest@bredhoff.com

SERVICE LIST
